    U.S. DEPARTMENT OF COMMERCE
              Office of Inspector General

 

 


                               Census Bureau


                                2010 Census:
       Cooperation Between Partnership
          Staff and Local Census Office
                  Managers Challenged
                 by Communication and
                 Coordination Problems


                            Final Report OIG-11-023-I

                                          April 8, 2011




                   FOR PUBLIC RELEASE



                         Office of Audit and Evaluation
                                                         UNITED STATES DEPARTMENT OF COMMERCE
                                                         Office of Inspector General
                                                         Washington. D.C. 20230




April 8, 20 I I

MEMORANDUM FOR:               Robert M. Groves
                              Director, U.S. Census Bureau


FROM:                         Ron Prevost \.,.; t\\i"'-   ~ ~\-e~
                              Assistant Inspector General for Economic
                              and Statistical Program Assessment

SUBJECT:                      Report No. OIG-II-023-J, 2010 Census: Cooperalion Belween
                              Parlnership Sla}!and Local Census Office Managers Challenged
                              by Communicalion and Coordinalion Problems

This memorandum transmits the final report on the Census Partnership Program. The report
examines the relationship between local Census office managers and Partnership staff, including
the new Recovery Act-funded Pminership Assistants.

We briefed your staff regarding our findings and recommendations on February 17,2011, and
provided you with a draft report on February 28. In short, we found that Partnership staff and
operations managers experienced systemic communication and coordination problems. In
addition, we found that the views of operations managers toward the Partnership program were
influenced by the guidance the managers received, with managers reporting effective guidance
tending to report more favorable views of the Partnership program. For subsequent decetmials,
we recommend that the bureau (I) align Partnership activities and objectives with LCO
schedules to remedy current systemic shortcomings and (2) ensure joint Partnership-LCO
manager training as paIi of the decennial process. With respect to the Partnership Assistants, we
found that the Assistants added value to the decennial but also presented challenges. Should the
bureau retain the Assistant position in the 2020 Census, we recommend that it (I) refine the
recruitment and hiring process (especially through more job-specific examination) and training
of Assistants, as well as (2) provide Assistants adequate electronic resources to do their job.

Your March 23 response to our draft report generally agreed with our recommendations. We
have summarized the response in our report and included it in its entirety in an appendix. The
report will be posted on OIG's website pursuant to section 8L of the Inspector General Act of
1978, as amended.

cc:     Brian Monaghan, Division Chief, Field Division
        Theodore A. Johnson, Chief Financial Officer
        Marilia A. Matos, Associate Director for Field Operations
        Arnold Jackson, Associate Director for Decennial Census
        Timothy P. Olson, Assistant Division Chief, Partnership and Data Services
      Adrienne C. Oneta, Acting Division Chief, Decennial Management Division
      Pamela H. White, Branch Chief, External Liaison Branch
      Adam Miller, Audit Liaison


Attachment
                                       Report In Brief
                                              U.S. Department of Commerce Office of Inspector General
                                                                      April 8, 2011
Why We Did This Review                    Census Bureau
The Census Bureau—with 680
Partnership and Data Services
Program (Partnership Program)             2010 Census: Cooperation Between Partnership Staff
staff positions established for com-      and Local Census Office Managers Challenged by Com-
munity outreach supporting the
2010 decennial census—received            munication and Coordination Problems (OIG–11-023–I)
$1.0 billion in 2009 Recovery Act
funds for “Periodic Censuses and
Programs” and set aside $126 mil-
lion for the Partnership Program.         What We Found
Approximately 3,000 Partnership
employees worked in FY 2009 and           The Partnership Program primarily assisted decennial operations by interfacing with hard-to-count
3,800 in FY 2010 (out of more than        groups, populations who have historically been undercounted or traditionally have not responded
165,000 and 782,000 total decen-          well to the decennial census questionnaire (e.g., ethnic or minority populations, renters, or low-in-
nial employees, respectively). The        come people). To accomplish its goal, the Program collaborated with partners (including local and
Partnership program spent about           tribal governments, community and religious organizations, schools, businesses, and the media) in
$300 million in FY 2009–2010, out         communities within a Census regional office area. Partners pledged their commitment to share the
of more than $8 billion total spent
                                          Census message and mobilized their constituents in support of the decennial count. According to
on the decennial in those years.
                                          the bureau, there were approximately 257,000 regional Census partners.
This report examines, among other
things, the relationship between          To connect these community partners with Census required Partnership to collaborate with
Partnership staff promoting the           LCOs. However, we found that Partnership operated independent of LCO production time-
2010 decennial and the local Cen-         lines—and the two groups experienced systemic communication and coordination problems:
sus office (LCO) managers hired to
                                          •    The relationship between Partnership staff and LCO managers suffered from misunder-
implement it.
                                               standing and miscommunication.
Background                                •    LCO managers lacking good guidance about Partnership tended to hold unfavorable views
First conducted in 1790, decen-                of the program.
nial censuses have fulfilled a vital      We also examined the new, Recovery Act-funded Partnership Assistant position, finding that it
constitutional mandate. The 2010          added value to the program but also presented challenges:
Census enumerated more than 300
million people. The results provide       •    The Partnership Assistants were not subject to thorough screening and were varied in their
important data that will guide                 workplace skills.
Congressional apportionment and
                                          •    Greater access to equipment and systems, as well as improved training and technical sup-
redistricting, as well as the distribu-
tion of more than $400 billion of
                                               port, would help Partnership Assistants improve performance.
government funding annually.
For the 2010 decennial, Census inte-      What We Recommended
grated 44 separate operations (totaling
some 9,400 program- and project-lev-
el activities). Temporary bureau man-     For subsequent decennial censuses, we recommend that the Census Bureau:
agement staff ran 494 local offices       •    Specify how to align Partnership activities and objectives with LCO schedules to remedy
and managed over 600,000 temporary             current systemic shortcomings
workers. Additionally, Census hired
Partnership Specialists who primarily     •    Ensure joint Partnership–LCO manager training as part of the decennial process
recruited local partners and provided     Should the bureau retain the Partnership Assistant position in the 2020 Census, we recommend
support for decennial operations. The
                                          that it:
bureau spent approximately half of its
$126 million Recovery Act Partner-        •    Refine the recruitment and hiring process (especially through more job-specific examina-
ship Program funding to establish a            tion) and training of Partnership Assistants
new position, Partnership Assistant,
to provide additional support to the      •    Provide Partnership Assistants adequate electronic resources to do their job, a key to ef-
program.                                       ficient and effective Partnership programming
U.S. Department of Commerce                                                                                     Final Report OIG-11-023-I
Office of Inspector General                                                                                                   April 8, 2011


                                                                  Contents


Introduction ..................................................................................................................................... 1
Findings and Recommendations ..................................................................................................... 3
   I. The Partnership Program and LCO Managers Experienced Systemic Communication and
   Coordination Problems ................................................................................................................ 3
      A. The Relationship Between Partnership Staff and LCO Managers Suffered from
      Misunderstanding and Miscommunication ............................................................................. 3
      B. LCO Managers Lacking Good Guidance About Partnership Tended to Hold
      Unfavorable Views of the Program ......................................................................................... 5
   II. Partnership Assistants Added Value to Partnership but Presented Challenges ................... 6
      A. Regional Directors and Partnership Staff Generally Reported Favorable Views of
      Partnership Assistants .............................................................................................................. 6
      B. The Partnership Assistants Were Not Subject to Thorough Screening and Were Varied
      in Their Workplace Skills ........................................................................................................ 7
      C. Greater Access to Equipment and Systems, as Well as Improved Training and
      Technical Support, Would Help Partnership Assistants Improve Performance ...................... 7
Summary of Agency and OIG Comments ...................................................................................... 9
Appendix A: Objectives, Scope, and Methodology...................................................................... 10
Appendix B: Simplified Census Bureau Chain of Command: LCO Management and Partnership
and Data Services Program ........................................................................................................... 11
Appendix C: Agency Response .................................................................................................... 12
U.S. Department of Commerce                                                         Final Report OIG-11-023-I
Office of Inspector General                                                                       April 8, 2011


                                                               Introduction

                                                                              Census Outreach: 1970–2010 
The Census Bureau—which already maintained 680 Partnership
                                                                              1970: The Community Educators 
and Data Services Program (Partnership Program) staff                            Program seeks to increase 
positions—received, in 2009, $1.0 billion from the 2009                        communication between local 
Recovery Act for “Periodic Censuses and Programs” and set                      and national organizations and 
aside $126 million for the Partnership Program. The Partnership                     the Census Bureau.
Program aimed “to get people (especially hard-to-count
population groups) to fill out the 2010 questionnaire and send it
back.”1 “Hard-to-count” refers to groups or populations who
have historically been undercounted or traditionally have not
responded well to the decennial census questionnaire (e.g.,                   1980: The Community Services 
ethnic or minority populations, renters, or low-income people).                 Program expands on the 
                                                                                    outreach program.
To accomplish its goal, the Program collaborated with partners
including state, local, and tribal governments; community-based
organizations; faith-based groups; schools; media outlets;
businesses; and other grassroots entities in communities within a
Census regional office area. Partners pledged their commitment
to share the Census message and mobilized their constituents in                1990: The Census Community 
                                                                                 Awareness and Products 
support of the decennial count. According to the bureau, there                   Program  targets minority 
were approximately 257,000 regional Census partners.                              groups on a local level.
Approximately 3,000 Census employees worked in the
Partnership Program in FY 2009 and 3,800 in FY 2010 (out of
more than 165,000 and 782,000 total decennial employees,
respectively). The Partnership Program spent about $300 million                2000: The Census Partnership 
in FY 2009 and 2010, out of more than $8 billion total spent on                  Program reaches out to 
the decennial in those years.                                                  governments, organizations, 
                                                                               media, and businesses, as well 
In addition, Census hired Partnership Specialists (“Specialists”)                 as the general public.
who primarily recruited local partners and provided support for
decennial Census operations. Also, the bureau spent
approximately half of its $126 million Recovery Act Partnership
Program funding to establish a new position, Partnership
Assistant (“Assistant”), to provide additional support to the                 2010: The Partnership and Data 
program.                                                                         Services Program creates 
                                                                                partnerships with national 
This report examines the relationship between two categories of                      governmental and 
Census employees: (1) Partnership staff (Specialists and                      nongovernmental organizations; 
                                                                                   state, local, and tribal 
Assistants) hired to promote the decennial and (2) the local                         governments; and 
Census office (LCO) managers hired to implement it. We found                        community groups. 
that the two groups experienced systemic communication and
coordination problems. The report also examines the new                       Source: U.S. Census Bureau

                                                            
1
  2010 Census, Partnership and Data Services, Building Partnerships: Program Components, Partnership
Specialist, Participant Guide and Reference Manual, U.S. Department of Commerce, Economics and Statistics
Administration, U.S. Census Bureau, December 2008, 1-1.


                                                                    1
 U.S. Department of Commerce                                                                                 Final Report OIG-11-023-I
 Office of Inspector General                                                                                               April 8, 2011


                 LCO Management and the Partnership Program :
                                                                                               Assistant position, finding that it
                     Distinct Roles, Joint Responsibilities                                    added value to the program but also
                                                                                               presented challenges. (See Appendix
                                                                                               B for a simplified chain of
           LCO managers                                         Partnership staff
                                                                                               command.)
           - Supervise 600,000+                                 - Promote the decennial
             enumerators in field                                 census
                                                                                               As part of our evaluation, we sent
           - Run 494 local offices                              - Work with hard-to-count,     opinion surveys to Partnership staff2
           - Recruit, test, train                                 special populations
             employees                                          - Identify, collaborate
                                                                                               and LCO managers.3 Further, we
           - Execute address listing                              with partner organizations   interviewed Census Regional
             and enumeration                                    - Sometimes interact
             operations                                           with media
                                                                                               Directors, gaining the benefit of their
           - Work under tight deadlines                         - Work independent of LCO      experience and institutional
                                                                                               perspective, and to whom both
                                                                                               Partnership staff and LCO managers
                                    JOINT RESPONSIBILITIES
                                                                                               were accountable. Appendix A
                                    - Develop, maintain effective                              includes the full scope of our work.
                                      public relations
                                    - Distribute marketing products Census—which often does not
                                    - Identify, locate hard-to-
                                      count populations             provide Partnership staff work space
  Source: OIG                                                       in LCOs, leaving them to work out of
                                    - Identify sites for decennial activities

                                                                    home or in the community—has not
  fully integrated Partnership into LCO timelines. As a result, communication and coordination
  problems with LCOs hampered crucial Partnership efforts. In principle, the Partnership Program
  supports LCOs by, among other things, obtaining commitments for use of sites for a wide range of
  decennial activity (see diagram for delineated responsibilities). In general, we found Partnership
  employees under the impression that LCO managers had used these sites. However, LCO managers
  reported the opposite: often they were unable to use sites they were counting on. From LCO
  managers’ perspective, this resulted in time lost to additional, unplanned work during high-pressured
  decennial operations.
 Additionally, we found that the Assistants added value to the Program but presented challenges.
 Although the Partnership staff reported generally positive views of the Assistants, they also reported
 that, as a group, Assistants varied in their workplace skills and should have been subject to a more
 selective hiring process. Partnership staff tended to report that the limited resources afforded the
 Assistants made management difficult—and greater access to those resources, to accomplish their
 jobs, could have improved Assistants’ performance.
 In our December 2009 2010 Census: Quarterly Report to Congress, we expressed our concerns about
 Specialists’ preparedness to supervise Assistants—and began to monitor the Partnership Program and
 Census’s accountability of these employees’ performance. Because surveys provide self-reported
 information, we contacted both LCO managers and Partnership staff to obtain well-rounded views on
 Partnership effectiveness. The results point the way toward future challenges—evaluations tackling
 hard-to-quantify issues. For instance: what success did the 2010 Partnership Program achieve? How
 did it fall short? And where should Census outreach go in 2020 and beyond?
                                                             
 2
   At the time of our survey, there were 834 Partnership Specialists, 90 Senior Partnership Specialists, and 13
 Partnership Coordinators, according to bureau payroll records. We refer to these employees collectively as
 “Partnership staff.”
 3
   We surveyed LCO Managers (LCOMs), Assistant Managers for Quality Assurance (AMQAs), and Area Managers
 (AMs). Each of the 494 LCOs has an LCOM and an AMQA. In addition, at the time of the survey, there were 79
 AMs. We refer to these employees collectively as “LCO managers.”  


                                                                                  2
  U.S. Department of Commerce                                                               Final Report OIG-11-023-I
  Office of Inspector General                                                                             April 8, 2011


                                                             Findings and Recommendations



  I. The Partnership Program and LCO Managers Experienced Systemic Communication
     and Coordination Problems
  A. The Relationship Between Partnership Staff and LCO Managers Suffered from
     Misunderstanding and Miscommunication
   Partnership staff and operations managers held opposing views of what Partnership staff
   accomplished for critical decennial operations. LCO managers relied on Partnership staff to
   identify locations for Questionnaire Assistance Centers (QACs) and Be Counted sites.4 When
                                                                 asked whether LCOs actually
 Figure 1. Partnership and LCO Managers: Conflicting Views       used Questionnaire Assistance
                                                                 Center locations identified by the
                                                                 Partnership staff, about 70
                                                                 percent of the Partnership staff
                                                                 said “yes.” However, about 60
                                                                 percent of LCO managers said
                                                                 “no” to the corresponding
                                                                 question. Their answers were
                                                                 virtually identical when asked
                                                                 about Be Counted sites. This
                                                                 pattern repeated itself, even more
                                                                 strongly, in the differing views of
                                                                 Partnership and LCO managers
  Source: OIG
                                                                 with respect to the identification
   and use of locations for the Service-Based Enumeration (which included mobile food vans and
   unsheltered outdoor locations5) and Group Quarters Enumeration operations.6 (In figure 1, note
   the large discrepancy between the views of “LCO managers” and “Partnership.”)
  These decennial operations required extensive coordination, preparation, and local knowledge.
  However, one LCO manager noted misunderstandings between these two groups about
  responsibilities. A manager from a different region observed that sometimes Operations
  managers and Partnership staff received conflicting information, possibly as a result of the
  decennial’s organizational structure.


                                                              
  4
    Questionnaire Assistance Centers (QACs) were staffed sites established to assist people with completing their
  questionnaires or who needed language assistance. Be Counted sites (often co-located with QACs) provided blank
  questionnaires to people who believed they were not included in the decennial. 
  5
    Service-Based Enumeration counted people who are experiencing homelessness. Mobile food vans were among
  the places where people experiencing homelessness receive services. Unsheltered outdoor locations the bureau
  targeted included parks, alleys, and bridges.
  6
    The Group Quarters population consisted of all persons residing in the United States who do not live in housing
  units such as single-family houses, apartments, and mobile homes, but rather in group situations such as college
  dormitories, nursing homes, military barracks, prisons, juvenile institutions, migrant worker dormitories, convents,
  and group homes.  


                                                                          3
U.S. Department of Commerce                                                   Final Report OIG-11-023-I
Office of Inspector General                                                                 April 8, 2011


The bureau’s written guidance for Partnership staff and LCO managers presented
conflicting messages on Partnership staff job responsibilities. The bureau’s written guidance
for LCO managers emphasized the Partnership’s cooperating role, while its Partnership guidance
tended to understate the Partnership’s working relationship with the LCO managers. This model
for the Partnership–LCO relationship conveyed mixed messages—and no formalized methods
for holding Partnership to LCO schedules—resulting, in part, in Partnership contributions far less
productive and timely than many LCOMs had hoped.
LCO guidance. The bureau’s manual for Assistant Managers for Quality Assurance (AMQAs), a
key LCO position, called Specialists “vital” to outreach success and stressed that AMQAs and
“Partnership Specialists must . . . establish and maintain a team environment” to establish
Questionnaire Assistance Centers and Be Counted sites.
Unlike the AMQA manual, the LCO manager manual did not put them in such a position of
reliance. In fact, the manual referred to previous misunderstandings of the Partnership’s role in
LCOs by telling managers that Specialists are “not assistant managers [but] almost like
consultants or your public relations barometers.” Further, the LCO manager training agenda
devoted only 30 minutes (out of three days) to the Partnership program, emphasizing working
and coordinating with Specialists. However, neither manager’s manual specified how LCO
managers were to align Partnership contributions with LCO schedules. Interestingly, there were
no significant differences in LCO manager and AMQA survey responses. Both groups expressed
similar levels of dissatisfaction with Partnership staff.
Partnership guidance. The Partnership staff training manual did not emphasize cooperation to
the extent that the LCO managers’ manuals did: “[O]n a secondary level, the Partnership
Specialists will work with the Local Census Office to support operations. During the course of a
Specialist’s job, tie-ins to the operations will inevitably arise.” Further, only one chapter out of
13 in the training manual outlined the Specialist role in operations. Questionnaire Assistance
Centers and Be Counted appeared among 10 operations briefly described. Nothing in Partnership
guidance specified how LCO managers would hold Specialists accountable to LCO production
schedules.
The bureau’s Specialist position description was consistent with LCO managers’ guidance,
saying that the position’s major duties included LCO support through "[working] effectively and
efficiently with the operational staff in providing support to census field operations. . . . This will
require integration with operational staff in . . . the Local Census Offices as well as the Regional
Census Centers.”
In other words, we see from the written guidance that while some at the bureau appear to have
embraced a cooperative and supportive Partnership–LCO manager relationship, that message
became fragmented and diluted, requiring specific management intervention to repair.
The challenges of the Partnership–LCO manager relationship were well-known among
Regional Directors. One Regional Director saw the problem as a decennial constant: “You
cannot eliminate friction between the Partnership and [LCOs].” Partnership is concerned with
building relationships and working with people; LCOs are focused on production, meeting
deadlines, and reaching quotas, this Regional Director noted.




                                                   4
U.S. Department of Commerce                                                        Final Report OIG-11-023-I
Office of Inspector General                                                                      April 8, 2011


Another Regional Director offered a different perspective: “They both need to understand their
roles. [LCO managers] need to understand that the Partnership must focus on hard to count, that
                                                         they’re not special assistants to the
 Figure 2. How Effective Was the Partnership Program?    LCOM.” This Regional Director
                                                         observed that the most frustrated LCO
                                                         managers had little or no assistance
                                                         from Partnership staff, often because a
                                                         particular office lacked sufficient hard-
                                                         to-count population to warrant
                                                         significant Partnership assistance. This
                                                         same Regional Director noted the need
                                                         to “manage expectations” among
                                                         Partnership and LCO managers.
                                                                   B. LCO Managers Lacking Good
                                                                   Guidance About Partnership Tended
                                                                   to Hold Unfavorable Views of the
  Source: OIG                                                      Program
Partnership staff and LCO managers expressed dramatically different views of the Partnership
Program. Partnership staff overwhelmingly reported favorable views of their own program, with
94 percent responding “Very
                                            Figure 3. Asked of LCO Managers: How Effective
Effective” or “Effective” to                (By Region) Was the Partnership Program?
that survey question. On the
other hand, only 36 percent of
LCO managers reported the
same view, with a virtually
equal number saying the
Program was “Very
Ineffective” or “Ineffective.”
However, the views of the LCO
managers were influenced by
guidance they may have
received about Partnership.
Among those reporting
receiving at least “Effective”
guidance about working with                                                               Source: OIG
Partnership staff, nearly 70
percent reported a favorable view of the program.7 (Note, in figure 2, the contrasting views of
well-informed LCO managers [top] compared to less-informed managers [bottom].)
In addition, there were pronounced regional differences in attitudes among LCO managers. As
seen in figure 3, half or more of the managers responding in the Chicago, Los Angeles, Boston,
and Dallas regions reported favorable views of Partnership, with Chicago in particular showing

                                                            
7
 However, only 23 percent of LCO managers who answered the question, or 192 respondents, reported receiving
“Very Effective” or “Effective” guidance—these are the managers of whom 70 percent favorably viewed the
Partnership Program. Seventeen percent said they received no guidance at all.


                                                               5
U.S. Department of Commerce                                                         Final Report OIG-11-023-I
Office of Inspector General                                                                       April 8, 2011


64 percent favorable. Meanwhile, in the New York, Philadelphia, and Kansas City regions, more
than half of respondents reported negative views.
We found no survey data that explained these regional differences. In particular, we found no
relationship between the views of LCO managers and the proportion of hard-to-count
populations in a region, or other factors that could account for a variety of challenges. Improving
the Partnership–LCO manager relationship will result in a more efficient and, perhaps, more
accurate Census—unencumbered by outreach inefficiencies, mismatched goals and expectations,
or significant resentment and frustration.
Recommendations
For subsequent decennial censuses, we recommend that the Census Bureau:
       1.     Specify how to align Partnership activities and objectives with LCO schedules to remedy
              current systemic shortcomings. Other adjustments to Partnership–LCO manager
              misalignment may include clarifying both the separate and shared responsibilities of
              Partnership staff and LCO managers. Along with common timelines, this helps each party
              better manage their relative skills and expectations.
       2.     Ensure joint Partnership–LCO manager training as part of the decennial process.
              Adequate joint training would communicate and align complementary and differing roles,
              responsibilities, and expectations.
II. Partnership Assistants Added Value to Partnership but Presented Challenges
Census hired Assistants to raise public awareness of the 2010 Census by staffing or attending
activities at local events, festivals, fairs and meetings; helping Specialists conduct outreach with
communities traditionally hard to count; preparing presentations and promotional materials and
distributing materials to partners and the public. Assistants were also to collaborate with
Specialists to identify testing and training space; maintain files; schedule appointments and make
follow-up phone calls on behalf of Specialists; and provide linguistic support. Census’s hasty
addition of Assistants to the Partnership Program (in response to unanticipated Recovery Act
funds) may account for some of the workforce inconsistencies we found.
A. Regional Directors and Partnership Staff Generally Reported Favorable Views of
   Partnership Assistants
Overall, 87 percent of Partnership staff and 41 percent of LCO managers said that Assistants
were “Very Effective” or “Effective.” However, among LCO managers reporting good
communication with Assistants, 81 percent concluded that they were either “Very Effective” or
“Effective.”8
Regional Directors felt positively about the Assistants. One Regional Director characterized the
Assistants as a “huge advantage to us,” saying that in that region Assistants were especially
helpful with languages and recruiting. Another Regional Director noted that the quick assembly
of the Assistant program resulted in a varying regional styles of implementation.


                                                            
8
 Forty-two percent, or 364, of Operations managers answering the question reported good communication with
Partnership Assistants.


                                                               6
U.S. Department of Commerce                                                           Final Report OIG-11-023-I
Office of Inspector General                                                                         April 8, 2011


Partnership staff found the Assistants were effective at distributing materials, working with hard-
to-count populations, and managing partner relationships and commitments. One Specialist
wrote that given the large geographic area he was assigned, the Partnership Assistants were
especially helpful.
These findings suggest that good communication with Assistants was associated with favorable
views of their effectiveness—and that management intervention to improve communication
between the Assistants and LCO managers would improve LCO managers’ views of them.
B. The Partnership Assistants Were Not Subject to Thorough Screening and Were Varied in
   Their Workplace Skills

Only about a quarter of the surveyed Partnership staff had a
favorable view of the recruiting and hiring system for Assistants,             Table 1. Partnership Staff
with many commenting that Partnership Assistants should have                   and LCO Managers Agree
been subject to a more selective hiring process. Table 1 shows                 on Assistants’ Skills
agreement between Partnership staff and Operations managers
with respect to the strengths and needed skills Assistants                     Current          Needed
possessed.                                                                     Skills           Skills
C. Greater Access to Equipment and Systems, as Well as                         Identifying      Using Census 
   Improved Training and Technical Support, Would Help                         local            forms and 
   Partnership Assistants Improve Performance                                  resources        procedures 

Assistants worked flexible schedules, often 22–36 hours per                                     Recruiting 
week from their homes and in the field. The bureau provided cell               Understand‐      temporary field 
phones to Assistants but not laptop computers, Census email                    ing the          employees from 
accounts and editing capability in the Integrated Partner Contact              importance       hard‐to‐count 
Database (IPCD).9 The limited resources available to Assistants                of the Census    groups for 
hindered communication among Assistants, other Partnership                                      enumeration 
staff, and LCOs—and intensified the challenges of managing                     Knowledge  
Assistants. When asked how Census could improve the Assistant                  of the local     Scheduling 
role, a Specialist commented that Partnership Assistants should                community 
have had access to the IPCD. Data entry is time-consuming, this
                                                                               Source: OIG
respondent noted, and bureau management’s expectation that
Specialists could maintain the database, in addition to their other
duties, was not realistic.
Enabling Assistants to complete more of their tasks (e.g., entering IPCD data themselves) would
have been a much more efficient and valuable use of staff. Supervising these Assistants also
posed difficulties. Slightly more than half of the supervising Specialists found the training and
guidance they received on how to supervise the Assistants “Very Effective” or “Effective.”
According to responses to one question, slightly less than 40 percent did not use the bureau’s
assignment sheet system to track Assistant-related activities. Instead, they monitored and verified


                                                            
9
  A Web-based contact management tool designed to capture external contacts, activities, and communications with
partner organizations, the IPCD generates management reports by region.
 


                                                               7
U.S. Department of Commerce                                                 Final Report OIG-11-023-I
Office of Inspector General                                                               April 8, 2011


the Assistants’ work through face-to-face interactions, phone conversations, site visits, non-
bureau email, and following up with Census partners.
Recommendations
Assuming the retention of the Assistant position in the 2020 Census, we recommend that the
bureau:
   1.   Refine the recruitment and hiring process (especially through more job-specific
        examination) and training of Assistants.
   2.   Provide Assistants adequate electronic resources to do their job, a key to efficient and
        effective Partnership programming.




                                                 8
U.S. Department of Commerce                                                Final Report OIG-11-023-I
Office of Inspector General                                                              April 8, 2011


                         Summary of Agency and OIG Comments

In its official response to our draft report, Census generally agreed with our recommendations to
better align the Partnership Program’s activities and objectives with the Local Census Offices
and to improve training and recruitment of the Partnership Assistants, should they be employed
in the 2020 Census.
Separately, Census expressed concern that our report was too narrow in scope—which, they
assert, has the effect of overstating the impact of the survey findings that are the basis of the
report. Census also states that the survey results do not provide a useful evaluation of the
Partnership Program’s overall effectiveness. However, this report, one of many evaluative
measures of the 2010 Census, did not set out to address the overall effectiveness of the
Partnership Program; it was part of our oversight of the Department’s Recovery Act spending.
Further, to enhance the efficiency of decennial census oversight, OIG worked with Census and
the Government Accountability Office to ensure that we did not have overlapping missions and
measurements. Census also asserts that the surveys only reveal expected variation among LCO
managers concerning the work of Partnership Specialists. We maintain that the extent of the
variation and the totality of the survey results support our characterization of the communication
and coordination problems between the Partnership Program and LCOs as systemic.
As the bureau prepares for the 2020 Census Partnership Program over the next decade, we look
forward to monitoring and reviewing its plans.
 



   




                                                9
U.S. Department of Commerce                                              Final Report OIG-11-023-I
Office of Inspector General                                                            April 8, 2011


                    Appendix A: Objectives, Scope, and Methodology


This report comprises part of OIG’s comprehensive 2010 decennial review and oversight of the
Commerce Department’s Recovery Act spending. Our objective was to evaluate the relationship
between the Census Partnership and Data Services (Partnership) Program and local Census office
(LCO) managers, as well as assess the role of Partnership Assistants. To accomplish this, we
surveyed both Partnership staff and LCO managers in all 12 Census regions, having developed
potential respondent lists after consulting Census headquarters staff. (We did not survey
Partnership Assistants [Assistants], the majority of whom concluded work at the end of April
2010. These Assistants had no bureau email addresses and there was no Assistant directory to
assist the survey process.) To develop questions, we used Partnership training materials and job
descriptions, consulted with Census staff, and referred to conventional employee satisfaction
surveys. We also conducted follow-up interviews with a majority of the bureau’s 12 Regional
Directors in order to benefit from their long-term, institutional perspective.
We used email to contact potential respondents and the web-based Survey Monkey™ tool to
collect survey responses. Partnership staff had access to the survey May 10–17, 2010 (for many
Partnership staff, the near-end of their Census bureau employment). There were 698 responses, a
response rate of 74 percent. The LCO manager survey was available from June 16–30, 2010,
during the last major decennial field operation. There were 906 responses, a response rate of 84
percent. Finally, we used Microsoft Excel® to download survey responses and SAS® for
analysis.
We prepared this report under the authorities of the Inspector General Act of 1978, as amended;
Departmental Organization Order 10-13, dated August 31, 2006, as amended; and in accordance
with the Quality Standards for Inspections (revised January 2005) issued by the President’s
Council on Integrity and Efficiency.
 




                                               10
U.S. Department of Commerce                                              Final Report OIG-11-023-I
Office of Inspector General                                                            April 8, 2011


               Appendix B: Simplified Census Bureau Chain of Command:
              LCO Management and Partnership and Data Services Program



                                           Census Bureau
                                            Headquarters



                                                 12
                                          Regional Directors



                                              Assistant
                                           Regional Census
                                              Managers



                                                          Partnership
                                 Area Managers
                                                          Coordinators



                                                            Senior
                                  Local Census
                                                          Partnership
                                 Office Managers
                                                          Specialists



                                                          Partnership
                                                          Specialists



                                                          Partnership
                                                          Assistants



    Source: U.S. Census Bureau



 




                                                     11
U.S. Department of Commerce                                 Final Report OIG-11-023-I
Office of Inspector General                                               April 8, 2011


                              Appendix C: Agency Response




                                                                            




                                          12
U.S. Department of Commerce        Final Report OIG-11-023-I
Office of Inspector General                     April 8, 2011




                              13
U.S. Department of Commerce        Final Report OIG-11-023-I
Office of Inspector General                     April 8, 2011




                                               




                              14
U.S. Department of Commerce        Final Report OIG-11-023-I
Office of Inspector General                     April 8, 2011




.
(ARRA000-844)



                              15
